I   Department of Health and Human Services

            OFFICE OF 

       INSPECTOR GENERAL 





         PRESCRIPTION DRUG USE 

           IN NURSING HOMES 




                      Report 2

      An Inside View by Consultant Pharmacists




                          JUNE GIBBS BROWN
                          Inspector General

                            NOVEMBER 1997
                             OEI-06-96-0008 1
                     EXECUTIVE                      SUMMARY 


PURPOSE

To describe consultant pharmacists’ concerns about drug usage in nursing homes and their
perceptions of their responsibilities for medication reviews for nursing home residents.

BACKGROUND

The primary goal of drug therapy for nursing home patients is to maintain and improve, to
the extent possible, the patient’s functional capacity and quality of life. The Omnibus
Budget Reconciliation Acts (OBRA) of 1987 and 1990, in recognition of this, require the
regulation of certain drugs in nursing homes and the establishment of drug utilization
review programs for nursing home residents. Provisions of the OBRA 1990, while not
required for all nursing homes, also clearly establish Congress’ desire to involve
pharmacists more actively in patient care.

Broad oversight of the drug therapy requirements for the nursing homes is performed by
consultant pharmacists hired to perform a monthly medication review for each resident.
As such, these pharmacists are a valuable source of information. To take advantage of
their experience, we surveyed a statistically valid sample of pharmacists drawn from a
stratified random sample of the 17,000 nursing facilities.

We undertook this inspection, using three different approaches, to provide insight into
several issues related to prescription drug use in nursing homes. These issues are
addressed in three reports, of which this is the second. This report presents the results of
an in-depth, structured mail survey of these consultant pharmacists.

The first report, “An Introduction Based on Texas” (OEI-06-96-00080), describes
prescription drug use in nursing homes based on Texas data. The third report, “A
Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-00082), discusses
results from an independent review of drugs and medical records for a sample of Texas
nursing home patients. Recommendations addressing the issues and concerns raised
collectively by all three reports are located in the third and final report of this inspection.

FINDINGS

Oualitv of Care Issues

Overall, pharmacists tell us they and the nursing homes are complying with the law and
regulations related to medication reviews of nursing home residents. However, problems
and concerns raised by the consultant pharmacists indicate that legislative and regulatory
intentions to assure high quality pharmaceutical care for nursing home residents are not
yet fully realized. It is important to understand that reports of possible “inappropriate”
use of medications are somewhat a matter of opinion. Ultimately, for nursing home
patients, it is either the patient’s attending physician or the facility’s medical director who
determines what is appropriate care.

According to pharmacists, patients are experiencing numerous adverse reactions as a
result of potentially inappropriate prescribing and inadequate administration or
monitoring of the usage of medications.

Adverse reactions reported by consultant pharmacists as occurring sometimes or often
include constipation (reported by 81 percent); falls (66 percent); delirium (41 percent);
depression (39 percent); and urinary incontinence (26 percent).

Pharmacists have serious concerns about prescribing practices for antipsychotics,
anxiolytics, sedatives/hypnotics, antidepressants, and other drugs.

Because legislation prescribes certain limitations on antipsychotics, anxiolytics, and
sedatives/hypnotics, there is concern that from 21 to 44 percent of pharmacists report
some patients are receiving medically inappropriate prescriptions of these drugs. Other
drugs, not necessarily legislated for scrutiny, which also seriously concern consultant
pharmacists include H2 antagonists (reported by 65 percent); non-steroidal anti-
inflammatory drugs (47 percent); narcotics (46 percent); digoxin (40 percent); antibiotics
and anti-infectives (39 percent); and gastrointestinals (36 percent). Moreover, according
to 15 percent of the consultant pharmacists, some physicians are prescribing medically
inappropriate antidepressants. One-third say antidepressants are sometimes prescribed
without an appropriate diagnosis and that few or no physicians ensure their maintenance at
appropriate levels.

A number of medication administration problems which may put patients at risk also
concern pharmacists.

These include absence of specific usage directions; incomplete orders; failure to update
medication administration records with dosage or schedule changes; physicians signing
orders that are not current or correct; failure to include orders on the medication
administration record; misplaced medications; and continuation of a medication in
disregard of stop orders. Further, medications are sometimes administered by nursing
staff at the wrong time, in non-optimal dosages, for inappropriate durations, or the
medication may be inappropriately altered (crushing, dilution, etc.).

Shortcomings of Medication Reviews

While all consultant pharmacists report they conduct monthly drug regimen reviews, their
responses indicate some serious shortcomings in the quality and thoroughness of reviews.




                                               ii
Pharmacists conduct some reviews without consulting important medical records and
without having patients’ diagnoses or laboratory reports.

More than half of the reviews do not consider the resident’s assessment (65 percent) or
plan of care (56 percent). Other records not consulted by pharmacists include facility
incident and accident reports (20 percent) and specialists’ notes and nutritional plans (13
percent). Fully one-third say they have difficulty obtaining a patient’s diagnosis and
necessary lab reports.

The results of drug regimen reviews often are not documented in records readily
available to nursing home staff.

While one-third of pharmacists say they document medication reviews and related contacts
in the patients’ medical records or medication charts, many do not document their efforts
in records most accessible to nursing home staff.

There is an apparent need to strengthen pharmacists’ relationships with patients and
direct care staff and also their performance of educational and counseling activities.

Many pharmacists have no contact with patients or their families or with nurse aides in
their conduct of drug regimen reviews. Also, over two-thirds report not providing
education or training for either patients or their families or guardians; nearly half do not
provide drug education for nurse aides or medication aides; and, despite the potentially
critical interaction between diet and medications, most pharmacists have no contact with
the facility dietitian.

RECOMMENDATIONS

Based on the concerns raised in this report, the Health Care Financing Administration
(HCFA) should work with the States and other responsible entities to improve the
effectiveness of medication reviews for patients in nursing homes. Recommendations to
accomplish this are provided in the third and final report of this inspection, “A
Pharmaceutical Review and Inspection Reports” (OEI-06-96-00082).

COMMENTS ON THE DRAFT REPORT

We solicited comments from agencies within the Department of Health and Human
Services which have responsibilities for policies related to Medicare and Medicaid and
long term care. We also requested input from several national organizations representing
the interests of nursing homes, patients, or providers. We appreciate the time and efforts
of those providing comments.

Departmental Comments

Within the Department, we received comments on the draft reports from the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation

                                               ...
                                               111
(ASPE). Both agencies concurred with the recommendations; HCFA emphasized the need
for further studies to assess the extent of continued use of potentially inappropriate drugs,
other avenues of possible cost savings related to drugs, and the need to determine and
understand the potential sources of the escalating costs and claims for certain types of
drugs used in nursing homes. The final reports reflect several clarifications or changes
based on their suggestions. The full text of each agency’s comments is provided in the
third and final report of this inspection, “A Pharmaceutical Review and Inspection
Recommendations” (OEI-06-96-00082).

Comments from External Organizations

We also received comments from the following external organizations: American Health
Care Association; American Association of Homes and Services for the Aging; American
Medical Directors Association; American Society of Consultant Pharmacists; and National
Association of Boards of Pharmacy. Most of the associations concurred with one or more
of the recommendations within each of the inspection reports. All comrnentors support
the need for better communication and coordination between nursing home staff and other
healthcare providers, training nurse aides, and understanding the implications of nursing
home medication services and associated costs.

Several organizations questioned the methodology used in this inspection, particularly for
the consultant pharmacist survey. However, as with any evaluation, there are always
some limitations in how data and information can be obtained, given time and other
resource constraints. Further, while we acknowledge that a survey of this nature
introduces some bias and subjectivity, we also believe that the survey of consultant
pharmacists provides us with an up-close view of what is happening with prescription drug
use in nursing homes. Moreover, the results of the consultant pharmacist survey are
consistent with our results from our two other methodologies.

Some comments expressed concerns about the use of the term, “inappropriate.” As
explained previously, use of this term in reporting concerns with a patient’s medication
regimen are somewhat a matter of opinion. The evidence provided in these three reports
does not prove that any one prescription was improper, but that closer examination is
warranted. Also, while the use of such a drug may be supported by physician orders in
individual cases, use of the drug, in general, is likely to be considered inappropriate.

Some comments addressed the implications of broadening Federal oversight. There is
clear concern about the responsibility for medication issues being the responsibility of the
physician, not the nursing home. Further, some organizations expressed concern that
these particular issues did not result in direct recommendations about the physician’s role
for nursing home patients’ medication regimens. We felt that further examination of this
area is warranted before recommending changes which would impact so many entities
involved in the process.

In conclusion, we believe the three reports collectively, and each using a different
approach, strongly indicate that the intent of the provisions of the OBRA Acts concerning


                                              iv
prescription drug usage are not being clearly fulfilled. Further, HCFA has authority to
correct and enhance quality of care for nursing home patients. The recommendations we
present attempt to facilitate the initial steps of this effort, and to address some concerns
evidenced in the reports and received comments. While we recognize that great strides
have been made to meet the OBRA requirements, we believe further effort remains by all
the players involved (HCFA, associations and their members, nursing homes, and
residents and their families) to further improve quality of care for nursing home patients.

The full text of each organization’s comments is provided in the third and final report of
this inspection, “A Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-
00082).




                                              V
                     TABLE             OF CONTENTS


EXECUTIVE SUMMARY


INTRODUCTION 
                                                                  1

  Regulation and control of prescription drugs in nursing homes 
               2

  Role of consultant pharmacists 
                                              3

  Physicians determine what is appropriate for patients 
                       4

  Challenge of prescribing for the elderly 
                                    5


SCOPE AND METHODOLOGY 
                                                         6


FINDINGS 
                                                                      9

  Quality of Care Issues 
                                                      9

  Shortcomings of Medication Reviews 
                                         14


RECOMMENDATIONS 
                                                              21


COMMENTS ABOUT DRAFT REPORTS 
                                                 22


ENDNOTES 
                                                                     24


APPENDICES

  Inappropriate Medications for Elderly Persons                               A-l

  Consultant Pharmacists’ Assessment of Medication Problems (Weighted Data)   B-l

  Additional Pharmacist Survey Weighted Data Tables                           C-l
                           INTRODUCTION

PURPOSE

To describe consultant pharmacists’ concerns about drug usage in nursing homes and their
perceptions of their responsibilities for medication reviews for nursing home residents.

BACKGROUND

Long Term Care and Prescription Medications

Medicaid is the primary public program for long-term care assistance for the elderly and
disabled. Long-term care is one of the largest and fastest growing needs of the elderly.
Of the $39.8 billion in program expenditures for care of this population in fiscal year
1995, 73 percent ($29.1 billion) went for nursing home stays. ’

Payments for prescription drugs represent a large portion of Medicaid’s expenditures for
nursing facilities. Medicaid provided services for 1.7 million nursing home residents in
fiscal year 1995 at an average cost per bed from $600 to $1000 per year.* This suggests
that Medicaid paid between $1 billion and $1.7 billion to provide prescription drugs to
residents of long term care facilities. This could be as much as 16 percent of total
Medicaid prescription drug expenditures.

Potential Health and Cost Problems

Several recent studies suggest that inappropriate use of prescription drugs by the elderly
creates the potential for serious health problems and the increased risk for wasted
hundreds of millions of Federal dollars annually in medication and hospitalization costs.
One study estimated that the percentage of hospitalizations of elderly patients due to
adverse medication reactions to be 17 percent, almost 6 times greater than for the general
population.3 Further, an expert panel of pharmacists estimates that the injuries resulting
from failed drug therapy result in approximately 100,000 hospitalizations and a cost of
$77 billion each year.4

According to the Food and Drug Administration (FDA), the elderly, about 13 percent of
the U. S. Population, account for over one-third of the “adverse drug experiences”
reported by pharmacists, physicians, and other health professionals. These figures
translate to 30,000 hospitalizations and $25 billion in costs among the elderly.’ Much of
this cost is paid by the elderly population, but a large portion of it is borne by Federal
health care programs including Medicare and Medicaid. Clearly, Federal programs as
well as our senior citizens are paying the high cost of failed drug therapy.6

Not only do the elderly use prescription drugs more than any other age population, they
also tend to be taking several drugs at once, increasing the probability of adverse drug
reactions.7v8 The elderly may also eliminate these medications from their system less


                                              I
efficiently than those younger due to decreased bodily functions. Studies also suggest
more subtle effects of inappropriate medication usage among the elderly, such as loss of
cognitive or physical function and the potential for increased falls. Researchers have
concluded that a number of prescription drugs used by the general population should not
be prescribed for elderly patients (See Appendix A). Equally effective drugs which
present fewer risks may be available.’

Regulation and Control of Prescription Drug Use in Nursing Homes

Omnibus Budget Reconciliation Act of 1987

As part of the Omnibus Budget Reconciliation Act of 1987 (OBRA 1987), Congress
requires the regulation of certain drugs in nursing homes. On October 1, 1990, the
Health Care Financing Administration (HCFA) implemented regulations which hold
nursing homes accountable for monitoring medication usage. lo Significant requirements
for pharmaceutical care of nursing home residents include provisions regarding Pharmacy
Services (drug regimen review), Quality of Care (drug therapy), Resident Rights (self-
administration of drugs), Resident Assessment, and Infection Control. Additionally,
physicians must justify the use of antipsychotic drugs based on specific diagnoses and
observe specific parameters within which these drugs may be used.



                     Nursing Home Patients,     Medications,   and OBRA 1987

              Each nursing home patient must receive necessary nursing, medical, and
              psychosocial services allowing him/her to attain and maintain the highest
              possible functional status. This status is defined by a comprehensive
              assessment and plan of care which each patient receives upon admission to
              the home and as “substantive” changes occur in the patient’s health status.
              To ensure each patient receives the necessary quality care, the law and
              subsequent regulations also recognize the value of medication therapy by
              defining certain limitations:

              1) patients must not receive unnecessary medications;
              2) 	 patients cannot be prescribed antipsychotic drugs unless they are
                   appropriate for a specific patient condition;
              3) 	 patients prescribed antipsychotic drugs will receive gradual dose
                   reductions, or behavioral programming in an effort to discontinue the
                   drugs (unless clinically contraindicated); and
              4) 	 the home must have no significant medication error rates and patients
                   must also have no significant medication errors.




To ensure these requirements are met, the States and HCFA are responsible for
performing routine facility surveys. To guide these reviews, HCFA developed “Indicators
for Surveyor Assessment of the Performance of Drug Regimen Reviews” and “Surveyor
Methodology for Detecting Medication Errors. ” They also released revised interpretive
guidelines relating to medication use in nursing facilities which provide tools for
identifying medication errors, and even include a list of specific drug therapy
circumstances which may constitute potential drug irregularities. Further, in July 1995,


                                                   2
HCFA implemented the final step in the implementation of OBRA 1987, new survey and
enforcement procedures. Changes include the use of new quality of life guides for the
patient, group, and family interviews; a protocol for non-interviewable residents; closer
cooperation between the State survey agency and the ombudsmen programs; and better
information for providers, including information to help them compare their patients to
residents of other nursing facilities across the region, State, or nation.

Omnibus Budget Reconciliation Act of 1990

The provisions of Section 4401 of the Omnibus Budget Reconciliation Act of 1990 (OBRA
1990) clearly demonstrate Congress’ desire to involve pharmacists more actively in patient
care by refocusing pharmacists from a product oriented role to one involving clinical
practice responsibilities for reducing potential drug therapy problems. While not required
for nursing homes in compliance with drug regimen review requirements (specified in 42
CFR 483.60), practicing pharmacists are expected to:

   1) 	prospectively review the patient’s present drug therapy and medical condition with
       proposed drug therapy;
   2) 	appropriately intervene with the prescriber on the patient’s behalf when inappropriate
       drug therapy has been prescribed; and
   3) 	as an outcome of their review, counsel patients on the proper use and storage of
       medication and how to alleviate or prevent potential therapeutic problems related to
       medication usage.

Under OBRA 1990, the State Medicaid plan must provide for a review of potential drug
therapy problems due to therapeutic duplication; drug-disease contraindications; drug-drug
interactions (including serious interactions with nonprescription or over-the-counter drugs);
incorrect drug dosage or duration of drug treatment; drug-allergy interactions; and clinical
misuse. Thus, OBRA 1990, in essence, requires a certain standard of practice for
Medicaid patients. While this regulation and the statute at section 1927(g)(l)(D) of the
Social Security Act preclude any Federal action to expand this law to apply directly to
nursing home patients, most States have extended coverage to all patients, including those
of health facilities. l1 One major camp onent of this law, patient counseling, has increased
both the role and the responsibility of the pharmacist in patient healthcare understanding,
planning, and outcomes, which, arguably, should be extended to all health care
environments.

Role of Consultant Pharmacists

Pharmacists, through their education and training, should be able to identify any serious
concerns related to medication prescribing and administration practices which, when
corrected, yield a positive impact on the quality of life for nursing home patients. Each
pharmacist’s relationship with nursing home patients requires their refocusing from a
product orientation (distribution of medications) to that of a clinical practitioner
responsible for reducing potential medication problems. Both our literature review and
the consultant pharmacists themselves confirmed that moving to a patient-focused


                                                3
orientation has required breaking with traditional dispensing roles and utilizing those
clinical skills for which many pharmacists are now routinely being trained. This changing
orientation within the industry helped strengthen the argument for using pharmacists in
nursing homes to more effectively assist in medication changes which could positively
impact a patient’s quality of care.

To ensure compliance with the OBRA regulations, nursing facilities are expected to
employ consultant pharmacists. These consultant pharmacists conduct monthly reviews of
the drug regimen of each facility resident to determine whether the prescription drugs
ordered for that individual are appropriate based on the OBRA guidelines. Consultant
pharmacists are also required to:

   1) determine that drug records for each resident are in order;
   2) establish a system to record receipt and disposition of prescription drugs;
   3) offer advice and instruction in all other areas of pharmacy services; and
   4) 	report any irregularities they discover in a resident’s drug regimen to the attending
       physician and director of nursing.

Some of the benefits potentially realized as a result of the consultant pharmacist role in
nursing homes are the reduction of excessive medication usage, improvement in patient
quality of care, and decreased cost for medication usage. Pharmacists may also help
medical and nursing personnel significantly improve medication therapy for patients in
nursing homes which, in turn, can help reduce total health care costs,r* particularly for
those changes resulting from fewer medications being taken, more appropriate medication
being prescribed, and fewer costly adverse reactions being experienced.

In addition to detecting quality of care concerns associated with inappropriate medication
usage, consultant pharmacists may detect potential waste and abuse which can increase
costs to the programs. Duplicate prescriptions and the early renewal of maintenance
prescriptions increase program costs in the form of additional dispensing fees and could be
signs of possible diversion or resale of prescription drugs. The required destruction of
numerous drugs upon the death, discharge, or change in treatment plan of a nursing home
patient may also result in greater expenses than necessary.

Physicians Determine What Is Appropriate For Each Patient

Reports of possible “inappropriate” use of medications are somewhat a matter of medical
opinion. Ultimately, for nursing home patients, it is either the patient’s attending
physician or the facility’s medical director who determine what is appropriate care. This
includes prescribing medications to meet patients’ needs. Once an individual is admitted
to a nursing home, the attending physician routinely participates in the ongoing care of
that patient, along with the other nursing home staff. The American Medical Association
defines several functional responsibilities for physicians with patients in long term care
facilities, including examining the patient upon admission; initiating, developing, and
overseeing the implementation of a comprehensive plan of care; maintaining medical
records; and participating in quality assurance reviews when possible.13 The physicians


                                                4
 are the primary persons to whom nursing staff look for identification and delineation of
 care for specific medical conditions, including prescribing of any necessary medications.

Generally, the nursing home’s medical director is expected to participate in a foundation
of activities relating to the care of nursing home patients. These include participating in
the formulation and review of care policies, infection guidelines, and pharmacy protocols;
provision of in-service education for staff; and attendance at a variety of facility
committee meetings (e.g., quality assurance). This role includes coordinating visits to
patients by other health care professionals, including attending physicians. Further, the
medical director is expected to intervene if an attending physician is negligent in visiting
patients or providing quality care.

OBRA 1987 requires that the pharmacist report any identified irregularities to the
attending physician of the patient and the director of nursing and that these reports be
“acted upon. ” Yet, the regulations do not specify several important aspects of reporting
any pharmacist’s concerns:

   1. 	how (i.e., in what format or in which patient records, such notification will be
        provided);
   2. 	 whether the medical and nursing personnel are required to provide an explanation for
        acceptance or rejection of the pharmacist’s concerns;
   3. 	guidance to medical, nursing, or pharmaceutical staff as to what constitutes “acting on”
        reported concerns or irregularities; and
   4. 	 no specified format or record location for acceptance or rejection of pharmacists’
        concerns by medical or nursing personnel.

It should be noted that regardless of any reported concerns by the consultant pharmacist, it
is the physician’s legal responsibility to order medication changes, not that of the director
of nursing. We do not minimize the difficulties physicians encounter in meeting the
medication needs of the most typical nursing home patient - the disabled or infirm elderly
person. Much available literature details the complexities of diagnosing and the unique
challenges of prescribing medications for the elderly.

Challenges of Prescribing Medications for the Elderly14

 Some disorders, which occur in the general elderly population with characteristic
 symptoms and signs, present unusual features or, conversely, present without usual
features. Problems usually restricted to the elderly include stroke, decubitus ulcers,
 metabolic bone disease, degenerative osteoarthritis, hip fracture, dementia syndrome,
 falling, Parkinsonism, and urinary incontinence. Further, the usual signs may be replaced
 with less specific ones, such as refusal to eat or drink, falling, incontinence, acute
 confusion, increasing dementia, weight loss, and failure to thrive. Multiple disorders in
 the elderly complicate and interfere with diagnosis and treatment of the presenting illness.
 Depression is probably the most common psychiatric disorder of persons over the age of
 65. Other conditions which become more common with age and which may present




                                               5
themselves atypically include organic psychoses, paranoid states, hypochondriasis, and
suicide.

Aging changes bodily organs and systems, causing less efficient functioning, and thus,
affecting the elderly person’s responses to medications. Any person over the age of 65
has the potential for increased side effects, overdosage, and/or diminished efficacy for a
minimum of 13 drug classes, such as antibiotics, antihypertensives, cardiac medications,
psychiatric medications (antidepressants, tranquilizers, hypnotics, etc.), or pain relievers.
Also, most clinical trials and studies on specific medications are usually performed using
younger people; the result can be drug treatment standards often hazardous to the elderly.
Thus, while the elderly may use the same drugs as younger persons, the effects can be far
different.

Research identifies many indicators relating to adverse medication outcomes, some of
which more directly pertain to nursing home patients. These include a patient having five
or more medications in their drug regimen, having 12 or more doses per day, having
more than three concurrent disease states, and the presence of drugs requiring monitoring.
Each of these are fairly common indicators for most nursing home patients.

Thus, the typical elderly nursing home patient may require different care skills and
knowledge of health care professionals than those required to treat the non-nursing home
populations with acute care problems. The primary goal of drug therapy in chronic care
is to maintain and improve, to the extent possible, the patient’s functional capacity and
quality of life.

SCOPE AND METHODOLOGY

Focus of Report

In 1996, the OIG undertook a project to assess the extent and appropriateness of drug use
by Medicare and Medicaid residents of nursing facilities. This project, conducted in three
phases, involved 1) a database analysis of the extent of prescription drug use by Texas
nursing home residents eligible for both Medicare and Medicaid; 2) a national survey of
consultant pharmacists to assess their role in identifying and reducing drug use problems
in nursing facilities; and 3) a pharmaceutical review of a sample of residents to determine
the appropriateness of prescription drugs utilized and to examine the extent of selected
drug use problems.

The first report, “An Introduction Based on Texas” (OEI-06-96-00080), provides specific
information concerning actual drug expenditures and identifies the types of drugs being
used in Texas nursing facilities. This report, focusing on the second component of the
project, identifies problems and concerns raised by consultant pharmacists. The third
report, “A Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-00082),
discusses results from an independent review of drugs and medical records for a sample of
Texas nursing home patients. Recommendations addressing the issues and concerns raised
collectively by all three reports are located in the third and final report of this inspection.


                                               6
This inspection was initiated as part of Operation Restore Trust, an initiative involving
multi-disciplinary teams of State and Federal personnel seeking to reduce fraud, waste,
and abuse in nursing facilities and home health agencies, and by durable medical
equipment suppliers. The initiative focused in five States (California, Florida, Illinois,
New York, and Texas).

Data analysis of prescription drug payments was purposely limited to Texas based on 1)
the availability of Medicaid data and planned identification of the Medicare and Medicaid
population in the State by HCFA and the Office of the Inspector General (OIG), 2)
designation as a demonstration site for Operation Restore Trust, and 3) the large number
of nursing facilities in Texas, approximately eight percent of long term care facilities in
the nation. Texas also ranks third in the nation for total Medicaid spending. Such data
was not readily available for other States. Thus, Texas was the selected site for the first
and third phases of this inspection. While we recognize that State operations concerning
nursing homes can vary greatly in their interpretation and enforcement of policies, we
believe the concerns identified in Texas will be generally common to many States.

Survey of Consultant Pharmacists

Because consultant pharmacists are responsible for a monthly medication review of 

nursing home patients, they serve as a valuable source of information. To take advantage 

of their experience, we surveyed a statistically valid sample of pharmacists drawn from a 

stratified random sample of the 17,000 nursing facilities. 


In order to be able to discuss issues related to the Presidential initiative, Operation Restore 

Trust (ORT), stratification was based on whether the nursing home is in an ORT State. 

This resulted in six strata - one for each of the five ORT States (California, Florida, 

Illinois, New York, Texas) and one for non-ORT States. We randomly selected 150 

nursing homes for each of the six strata resulting in a sample of 900 facilities. Each of 

the 900 nursing facilities sampled was contacted directly to obtain the name of its current 

consulting pharmacist providing drug regimen reviews for the nursing home’s patients. 


A structured, in-depth mail survey asked pharmacists to provide sufficient information to 

determine 1) whether and to what extent drug regimen reviews are being conducted, 2) 

other services which pharmacists may be providing, 3) constraints of the review process, 

and 4) their views about medication use problems in nursing facilities. 

Their responses were solicited with certain parameters: 


   1) 	Pharmacists were asked to randomly select a single home for which they would provide
       information (this home was not necessarily the sample home from which we identified
       the pharmacists);
   2) 	We asked that they answer all questions throughout the survey with that one home in
       mind;
   3) 	Pharmacists were to have at least six month’s personal and continuous experience
       providing consultant pharmacy services to the nursing home about which they were
       responding;


                                               7
   4) 	 The nursing home should include predominantly Medicare and Medicaid residents
        (some private pay as well); and
   5) 	 The responses were to be reflective of their activities for the six month period prior to
        their receipt of the survey.

Our original response rate for returned surveys mailed was 76 percent (682 of 900).
However, in our decision to take a conservative approach, we dropped 221 returned
surveys because some nursing facilities were determined to be duplicates as a result of
name changes, misspellings, etc.; pharmacists being identified as servicing more than one
sample facility; and some facilities closing subsequent to the review period. The
remaining 461 surveys (75 percent ORT and 25 percent non-ORT) represent 51 percent of
the original 900 and provide the basis for the findings of this report.

Confidence levels were computed for selected variables using SUDAAN. At the 95
percent level, confidence intervals were no greater than +8 percent for most survey
responses. The data reported in our findings have been weighted to reflect responses
received from pharmacists representing each ORT State or the other, non-ORT States.
Assuming that the pharmacists did in fact randomly select the facility for which they
provided information (including those pharmacists who were identified for more than one
facility), we can generalize our findings to encompass all consultant pharmacists who have
responsibilities for nursing home patients.

This evaluation was conducted as part of ORT, an initiative involving multi-disciplinary
teams of State and Federal personnel seeking to reduce fraud, waste, and abuse in nursing
facilities and home health agencies, and by durable medical equipment suppliers.

Our review was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                                8
                                    FINDINGS

QUALITY OF CARE ISSUES

Overall, pharmacists tell us that they and the nursing homes are complying with the law
and regulations related to medication reviews of nursing home residents. However, the
problems and concerns raised by the consultant pharmacists indicate that legislative and
regulatory intentions to assure high quality pharmaceutical care for nursing home residents
are not yet fully realized.

Pharmacists believe that nursing home patients are experiencing numerous adverse
medication reactions as a result of inadequate monitoring of medications and
inappropriate prescribing practices.

Consultant pharmacists, who advocated for and received increasingly responsible roles
under OBRA 1987 and OBRA 1990, believed they could play a vital role in assuring
quality care for nursing home patients. Arguably, pharmacists’ professional education
gives them valuable expertise and clinical knowledge concerning pharmacotherapy.
Critical to this expertise and extremely important for the nursing residents is monitoring
the effects of medication usage, either for maintaining or improving a patient’s health
status or to identify any effects of medications or disease which may undermine such
improvement or maintenance. Many pharmacists report eight problems regarding
monitoring of patients’ medications which sometimes occur:

    1) no lab testing to ensure continued need for the medication (61 percent); I5
    2)   failure to chart drug usage (59 percent);
    3) medication to medication interactions not detected (57 percent);
    4) no lab testing to monitor potentially toxic drugs (51 percent);
    5) failure to adjust dosages for renal/hepatic function (50 percent);
    6)   no monitoring for efficacy or side effects (50 percent);
    7) 	 no physical functioning assessment of patient to check either for correct dosage or
         continued need for the medication (47 percent); and
    8) no physical assessments for routine monitoring of certain drugs (43 percent).

Additionally, a large number of consultant pharmacists are concerned that medications
being prescribed to patients contribute to patients’ constipation (reported by 81 percent of
pharmacists); falls (66 percent); delirium (41 percent); depression (39 percent); and
urinary incontinence (26 percent). l6

Many drugs other than psychotropics are also psychoactive, in the sense that they may
affect a patient’s cognition, balance, and motor coordination, as well as pulse and blood
pressure. Unfortunately, elderly patients have an increased risk of falls if they experience
a combination of several certain ailments or medications.17 One key to monitoring for
these and other potential effects is the extent to which physicians have communicated their


                                               9
expectations to conduct such monitoring, i.e., in their orders prescribing care for the
patient or in progress notes, and the extent to which the nursing staff is able to accurately
report the results of any such monitoring.

Another factor directly linked to the effectiveness of such monitoring is the cooperation,
coordination, and communication between all the key persons involved in the care of the
patient. Cooperative healthcare team work requires routine interaction between the
involved team members. In the case of the nursing home, it will at least require
communication between medical, nursing, and pharmaceutical personnel and include the
patient as well as other nursing home staff. However, it can be extremely difficult to get
all the team members together routinely. This is complicated by the fact that such
meetings are not required. Thus, the means and opportunity for communication (written
or verbal) between the involved personnel becomes more critical. Written communication
becomes even more necessary when at least two of the critical players (physician and
consultant pharmacist) do not frequent the home regularly and rarely interact directly with
each other. It becomes difficult to ensure that the necessary engagement between players
occurs, and without clear communication, cooperation will be extremely hard to develop
between these critical players,

Many of the consultant pharmacists (40 percent) assess the extent of cooperation from
residents’ personal physicians as only fair or poor. Consultant pharmacists are
disturbed that some physicians do not take their concerns seriously or act promptly
on their recommendations.

Twenty-eight percent of the pharmacists report residents’ physicians only sometimes give
serious consideration to their concerns. Similarly, 35 percent of consultant pharmacists
say doctors only rarely or sometimes take prompt action on their recommendations about a
specific resident’s prescriptions or medication regimen, although 65 percent say that those
physicians who do take action do so promptly. Further, while 43 percent of consultant
pharmacists say physicians act promptly on their recommendations about patterns in the
physician s prescribing practice, many consultant pharmacists say they only do so
sometimes (45 percent) or rarely (11 percent). By contrast, 99 percent of the consultant
pharmacists say nurses seriously consider their concerns most to all the time. Further,
over 90 percent of the pharmacists agree that bothpersonal physicians and nursing staff
should routinely solicit their help regarding appropriate medications and dosages.

A majority of pharmacists say personal physicians rarely or never seek their help
regarding either the appropriate medications (reported by 68 percent) or proper dosages
for medications (59 percent). In contrast, consultant pharmacists say nurses sometimes to
often seek their help with medications (reported by 75 percent) or dosages (89 percent).
For the most part, pharmacists report receiving very good to good cooperation from the
nursing directors (95 percent), nursing staff (94 percent), and nursing home administrators
(83 percent). However, they rate the cooperation of patients’ personal physicians and the
facility medical directors somewhat lower, with only 57 percent and 72 percent,
respectively, rated as good to very good.



                                              10 

According to many of the surveyed consultant pharmacists (55 percent), their medication
reviews are more complicated because 50 percent or more of their patients are frail
elderly (85 years or older). While 56 percent of the pharmacists say that physicians are
adequately aware that certain medications are considered inappropriate for use by this age
group, 29 percent state that physicians are not adequately aware of the special medication
needs of these patients; another 15 percent did not know. As a result, pharmacists fault
some physicians’ lack of awareness concerning the medication needs of elderly nursing
home patients and the resulting consequences of prescribing without such awareness.

Pharmacists have serious concerns about specific prescribing practices related to
antipsychotics, anxiolytics, sedatives/hypnotics, antidepressants, as well as other
prescription drugs.”

The law specifies that patients have the right to be free from any medication imposed for
the purposes of discipline or convenience, and not specifically required to treat medical
symptoms. It also requires that any use of antipsychotic medications be based on a
comprehensive assessment of the patient. In fact, some experts recommend that any
patient using such drugs receive gradual dose reductions, have drug holidays (for which
there are no Federal guidelines as to which drugs or for what dosages or durations), or
receive behavioral programming in an effort to discontinue or reduce the dosage of these
medications. Because legislation prescribes these and other limitations on antipsychotics,
antianxiety medications, and sedatives/hypnotics, there is concern that from 21 to 44
percent of pharmacists report some patients are receiving medically inappropriate
prescriptions of these drugs.

Further, consultant pharmacists report that of those physicians prescribing antidepressants,
sedative/hypnotics, antianxiety agents, and antipsychotics, many are not attempting to
achieve the lowest effective doses. Specifically, few physicians are attempting to achieve
the lowest effective doses for antidepressants (reported by 42 percent of pharmacists);
sedative/hypnotics (21 percent); anxiolytics (14 percent); and antipsychotics (10 percent).
Important among the reasons pharmacists believe physicians are not limiting their
prescribing of inappropriate medications, is the pressure to continue the medications from
the patient’s family or guardian (28 percent), the patient (24 percent), and the facility staff
(14 percent). Lack of physician knowledge (21 percent) or training (15 percent)‘are also
noted by consultant pharmacists, along with perceived indifference by the physician
responsible for ensuring the patient’s care (21 percent).




                                               11
                         Table 1: Patients Receiving      Inappropriate      Medications

                                                                                 Sedatives/
                                        Antipsychotics         Anxiolytics       Hypnotics    Antidepressants   1’

      Patients Inappropriately
              Receiving

   % Consultant   Pharmacists
     Reporting    Yes                         33                    35               44               21        I
   % Consultant   Pharmacists
     Reporting    No                          67                    65               56               79        I’



We are aware that HCFA has committed to goals of decreasing patient usage of
antipsychotics and antianxiety medications while increasing the use of antidepressants
when appropriately necessary. Recent studies indicate that the OBRAs 1987 and 1990
regulations may have helped to achieve such a reduction for antipsychotic drug use in this
population. Preliminary data collected by HCFA on nursing homes in three test States
indicate a shift in usage from antipsychotics to antidepressant medications. Specifically,
the data illustrates an average decrease of 17 percent in the use of antipsychotics and an
increase in antidepressant (77 percent) and hypnotic/sedative (27 percent) drug use. l9

We should note that a considerable number of consultant pharmacists indicate appropriate
prescribing practices for antipsychotics (46 percent); anxiolytics (44 percent);
sedatives/hypnotics (38 percent); and antidepressants (57 percent). Yet, it is significant to
note that from l-6 percent of the consultant pharmacists say these four drug categories are
inappropriately prescribed by most or all physicians; an additional 9-17 percent say some
physicians are inappropriately prescribing these medications to nursing home patients.
Table 2 reflects how many physicians consultant pharmacists believe are inappropriately
prescribing these categories of medications.

                        Table 2: Percentage of Pharmacists Reporting Physicians
                                 Inappropriately Prescribing Medications

                   Medication    Type      % None        % Few       % Some        % Most     % All

              Antipsychotics                  46              42          10          2         1
              Anxiolytics                     44              38          16          3         0
              Antidepressants                 58              29          9           4         2
              Sedatives/Hypnotics             38              42          17          3         1



In addition to the four drug categories discussed, consultant pharmacists also have serious
concerns about patient usage of other medications including the following:




                                                         12
                                                         % Consultant Pharmacists
               Medication Type                         Sometimes or Often Concerned

    1) H2 Antagonists                                              6.5
    2) Non-steroidal Anti-inflammatory drugs                       47
    3) Narcotics                                                   46
    4) Digoxin                                                     40
    5) Antibiotics and Anti-infectives                             39
    6) Gastrointestinals                                           36


According to 15 percent of the consultant pharmacists, some physicians are
prescribing medically inappropriate antidepressants, and 33 percent indicate concern
that antidepressants are prescribed without an appropriate diagnosis.

Again, it is important to understand that “inappropriate” may also mean insu$fkient
amounts rather than too much or a wrong type of medication. While 42 percent of
consultant pharmacists report most or all physicians attempting to limit or reduce the
dosage of these drugs, literature and research indicate that many physicians may be
limiting antidepressants too much when a higher dosage would actually be more effective
for depression. This was confirmed by consultant pharmacists reporting that when a
diagnosis of “depression” is available, some (25 percent of pharmacists report) or most (6
percent) physicians may be prescribing sedatives or hypnotics when antidepressants should
be used in the treatment of depression.”

Thirty-four percent of the consultant pharmacists express concern that physicians do
not ensure the continued maintenance of appropriate levels of antidepressants.

Treatment of depression must begin with a comprehensive evaluation of the older person.
This assessment will rule out any associated medical or physical conditions which may
present symptoms of depression or which may complicate the treatment of depression.
This includes reviewing laboratory studies, including a complete blood cell count; liver
function tests; serum albumin levels, thyroid function tests. Also, all current medications
should be reviewed in light of any lab tests and symptoms being exhibited by the patient.

Consultant pharmacists also expressed concerns about other potentially inappropriate
medication usage by nursing home patients:

                                                            % Consultant Pharmacists
                    Medication Issue                       Sometimesor Often Concerned

    1)     Prolonged use of sleeping medicines                           76
    2)     Overutilization of drugs                                      62
    3)     Use of “as needed” drugs for too long                         61
    4)     Use of antipsychotics without a diagnosis                     45
    5) 	   Use of contraindicated drug for patient’s                     26
           existing diagnosis or disease


                                                  13 

A number of medication administration issues are also problems according to
consultant pharmacists.

These include absence of specific usage directions (reported by 60 percent of
pharmacists); incomplete orders (52 percent); failure to update the medication
administration record with dosage or schedule changes (29 percent); physicians signing
orders that are not current or correct (27 percent); and failure to include orders on the
medication administration record (18 percent), These concerns may actually result in
medications or treatment either occurring when unnecessary or being needed and not
occurring at all (each of which may be grounds for citing immediate jeopardy for the
patient not receiving the necessary care), Also, misplaced medications (22 percent) and
continuation of a medication in disregard of stop orders (17 percent) also sometime
concern consultant pharmacists.

Approximately half of the surveyed consultant pharmacists state that medications are
sometimes administered by nursing staff at the wrong time (reported by 59 percent), in
non-optimal dosages (53 percent), for unsuitable durations (47 percent), or the medication
may be improperly altered (crushing, dilution, etc.) (40 percent). Much less frequent
administration concerns include administering the wrong medication (11 percent) or giving
a medication to the wrong resident (4 percent). Any of these concerns can have
potentially serious implications, both for the efficacy of the drug and a patient’s well-
being. Yet, about 59 percent of pharmacists express concerns for their lack of authority
to modify a resident’s drug regimen, order lab tests to assure an appropriate medication
regimen (66 percent), or to ensure doctors are prescribing appropriately (62 percent).
Consultant pharmacists are also concerned that doctors are not required to respond to their
concerns (reported by 54 percent pharmacists) or may reject their recommendations (47
percent), even though the consultant pharmacist is required to notify the physician and
director of nursing of any problems.

SHORTCOMINGS          OF MEDICATION           REVIEWS

While all consultant pharmacists report they routinely conduct medication reviews, their
responses indicate some serious shortcomings in the quality and thoroughness of reviews.

Some consultant pharmacists say they do not routinely participate in comprehensive
patient assessments or in reviews of each patient’s plan of care when opportunity
allows.

Section 483.20 of CFR 42 requires that nursing facilities conduct a comprehensive patient
assessment at admission and promptly after a significant change in the patient’s condition.
This assessment includes diagnosis(es), special treatment needs, recommended medication
and nutritional therapy, cognitive, physical, behavioral, and psychosocial patterns, and
other related health conditions. The assessment should occur at least once every 12
months, and nursing facilities must perform a review of the assessment at least every 3
months, and as appropriate, revise the patient’s assessment. This, in turn, could affect
each patient’s plan of care. Also, OBRA 1987 Section 483.460(j)(5) states that “us


                                             14
appropriate” the pharmacist must participate in the development, implementation, and
review of each patient’s plan (either in writing or in person).

More than half the consultant pharmacists state they do not routinely review a
patient’s medication regimen against either the Resident Assessment (65 percent) or
the Plan of Care (56 percent), although both are available.

As discussed above, the patient’s assessment identifies critical information for the medical,
nursing, and pharmaceutical healthcare team. The plan of care is prepared by an
interdisciplinary team, which should include the attending physician, a registered nurse
with responsibility for the patient, and “other appropriate staff in disciplines as determined
by the resident’s needs, and, to the extent practicable, the participation of the resident, the
resident’s family or the resident’s legal representative.”

Further complicating the possible outcomes of the medication reviews, even though
pharmacists indicate that most records necessary for conducting a medication review are
readily available, some very important records are sometimes not available. Additionally,
other important, available medical records may not be used by the consultant pharmacist.
Most consultant pharmacists indicate no difficulty obtaining physician orders (reported by
94 percent of pharmacists), medication administration records (89 percent), or physician
progress notes (87 percent).

                         Table 3: Performance     of Drug Regimen Reviews
                                                                                    I
                                                                     % Yes   %No    1

             Against plan of care                                     44      56
             Against resident assessment                              35      6.5
             Upon readmission from hospital                           81      19
             Upon changes to doctor’s orders or resident’s plan of    75      25
             care



Plans of care and patient assessments provide much of the necessary information for a
pharmacist to identify any factors which may be negatively affecting a patient’s medication
regimen. Yet 48 percent of the consultant pharrnwists report they have (at times) been
prevented from performing a complete medication review because of lost or misplaced
records. However, only 21 percent of the consultant pharmacists say that lack of
complete, accurate medication records is a barrier to their ability to ensure an appropriate
medication regimen for each patient.

While 80 percent of consultant pharmacists have no difficulty in obtaining a facility’s
incident or accident reports related to patients, 20 percent indicate they do not use them as
part of the drug regimen review process. Such reports may be indicative of negative
medication symptoms occurring and resulting in, for example, falls. Further, an analysis
or summary monthly report by the facility might prove useful for identifying patterns of
concern (e.g., patients on psychotropic drugs being the most prone to falls; falls occurring


                                                   15 

more often during a late night shift; etc.). Further, approximately 13 percent of the
consultant pharmacists indicate they do not use either specialists’ notes or nutritional plans
to assist them in determining whether there may be a related contraindication or impact on
the patient’s medication usage.

More than one-third of consultant pharmacists indicate they have difficulty in
obtaining the patient’s diagnosis. Additionally, 33 percent indicate difficulty
obtaining any related laboratory reports, and some have problems getting hospital
reports (30 percent) and patient discharge summaries (25 percent).

It should be understood that pharmacists and nursing staff should have available at least
one of the following three documents from which to obtain a patient’s diagnosis - the
Minimum Data Set which identifies a patient’s chronic diagnostic conditions; the patient’s
personal assessment; or the patient’s plan of care addressing any chronic or acute
diagnoses. Without at least one of these records being available, complete, and accurate,
consultant pharmacists will not have the necessary information for confirming existing
conditions for each diagnosis, identifying subsequent medication regimen actions for
treating a patient’s disease, or for continuing assessment of the patient’s health. Without
this information, pharmacists can meet only a portion of their professional responsibility
to the patients.

With an incorrect diagnosis, or no available diagnosis, pharmacists are working in a void,
one in which a wrong therapy may be initiated. For example, an older female patient
may be exhibiting signs and symptoms of depression that may be caused by
hypothyroidism. In this case, it would be improper to treat the symptoms with an
antidepressant. Yet, without the required lab work, one may not realize the need for
thyroid medication. Thus, in treating the symptom (depression) with an antidepressant
instead of the cause (hypothyroidism) for the symptom, an incorrect or unnecessary
therapy could be initiated, one which perpetuates the problem and may also cause
additional perceived signs of senility (confusion, lapses in memory, difficulty
communicating, etc.)

While one-third of pharmacists say they document medication reviews and related
contacts in the patients’ medical records or medication charts, many do not document
their efforts in records most accessible to nursing home staff.

Pharmacists have long understood and accepted the need to document any form of
dialogue noting, at a minimum, the fact that the dialogue occurred, with whom, the date,
and the issue discussed. Nursing facilities maintain many types of files related to patient
care and related activities. As indicated below, many of the consultant pharmacists do not
routinely document their contacts or meetings related to patients’ medication regimens in
these records.




                                              16 

                    Table 4: Location of Consultant Pharmacist Documentation
                     of Contact or Meetings Related to Patient Drug Problems

                        Type Records Used for                    % Yes
                Consultant Pharmacist Documentation

        Daily Nursing Notes 
                                         5        95
        Medical Records 
                                            31        69
        Records of Dispensing Pharmacy 
                             32        68
        Patient’s Plan of Care 
                                      4        96
        Patient’s Assessment 
                                        4        96
        Consultant Pharmacist (Own) Records 
                        97        3
        Medication Chart 
                                           34        66



During a related review, we asked nursing facilities to provide certain necessary records
for performing a desk review of a sample of patients’ medication regimens. Many of the
facilities had difficulty providing the records of the pharmacy consultants because they
were maintained by the pharmacists in another location. Regardless of the potential lack
of documentation, explicitly required of facilities by HCFA, fully 98 percent of the
consultant pharmacists having recommendations from their most recent reviews say they
voiced those recommendations to the nursing staff or physicians.

A complicating factor in conducting medication reviews is that pharmacists report
most patients take six prescription medications on average.

This supports what the literature stated, that nursing home patients receive more
medication than non-institutionalized older persons. *’ Also the number of prescriptions
can range to as many as twelve or more, resulting in extremely complex reviews. In
addition to the prescribed medications, pharmacists report patients may also be scheduled
or routinely taking an average of three PRN (“as needed”) medications. These PRN
medications exceed 15 for some individuals. Thus, the average number of medications
can range from 9 to beyond 20. This is important because the elderly use more
prescription drugs than any other age group and are more likely to be taking multiple
drugs, some of which may be inappropriate and result in particularly acute problems.
This polypharmacy increases the probability of adverse drug reactions, creating a
complicated regimen for pharmacists to review and understand, let alone communicate
recommendations concerning such regimens.

Yet, the American Society of Consultant Pharmacists, in which many of the nursing home
consultant pharmacists have membership, indicates each consultant pharmacist completes
from four to six patient reviews per hour. This time incorporates all other activities for
which the consultant pharmacist is responsible in the nursing home, (e.g., meetings,
training, etc.). Average review time may be somewhat longer for patients requiring
skilled or hospice care or having a large number of medications.** Similarly, the
consultant pharmacists in our survey indicated averaging four patient reviews per hour for
monthly visits (this time is based on a 32 hour week, a 4.33 week month, and reported
median numbers of patient reviews monthly).


                                                17
It is also possible that not all medications a patient may be taking are included in the
pharmacists’ medication reviews.

The consultant pharmacists identified many barriers to their including non-prescribed
medications in their medication reviews for each patient. Despite their importance as part
of a patient’s overall health and drug regimen, consultant pharmacists say their review of
such medications is limited by such factors as their nursing home contract not specifying
these drugs as part of the review and non-prescribed medications not being included in
either the assessment, plan of care, or the permanent medical record for each patient.
Further, many consultant pharmacists say records on non-prescribed over-the-counter
medications are usually insufficient or not available and that collecting data on their use
from patients or guardians is too labor intensive (see Appendix B, table 10).

A majority of the consultant pharmacists say they routinely maintain medication
control, destruction, and quality records.

Virtually all consultant pharmacists (96 percent) monitor for expired medications, proper
storage, and integrity of packaging of medications received in the nursing home; 84
percent maintain a system of records for medications received, administered, and
destroyed. Fifty-four percent of the pharmacists also report they personally maintain or
review a log of destroyed medications for each facility they serve. The primary reasons
listed by consultant pharmacists for medications being returned for destruction include the
patient’s death (83 percent); discontinuing therapy (40 percent); discharging the patient (24
percent); and changing the medication (20 percent). Eight percent listed the expiration
date of the medication; only 1 percent indicated the transfer of the patient as the primary
reason for destroying. medications. Additionally, nearly 12 percent of the consultant
pharmacists say they sometimes encounter overcharging for medications dispensed.

It is interesting to note that fully 91 percent of the consultant pharmacists believe reusing
medications would yield Federal and State savings (the primary exceptions are controlled
drugs having Federal or State regulations that require destruction or medications in liquid
form or vials contaminated by prior use). Even though some pharmacists indicated the
savings may be offset by many potential administrative costs, 54 percent of the consultant
pharmacists say unused, properly packaged medications could be returned to the-vendor
pharmacy to redispense for use by others.

Many consultant pharmacists (89 percent) do not participate in patient care planning
committees.

A majority of consultant pharmacists are participants of facility committees to ensure
quality care (87 percent), pharmacy and therapeutics (74 percent), and infection control
(67 percent). However, fully 89 percent do not participate in the facility’s patient care
planning committee. Further, while most consultant pharmacists have routine contact with
the medical professionals involved in patient care (facility nursing director, nursing staff,
and patient’s personal physician), few routinely meet with the patient (18 percent), the
primary individual for whom they are conducting the review. Only 12 percent contact a


                                              18 

patient when a problem with his/her medication regimen is encountered. Even fewer (five
percent) report having routine contact with the patient’s family or guardian when a
problem is encountered with a patient’s medication regimen. Also, despite the impact of
diet on medications, less than half of the pharmacists routinely contact the facility dietitian
(43 percent) and few consultant pharmacists have routine contact with either the nurse
aides (18 percent) or other therapists (25 percent) regarding patients under review. Thus,
there appears to be a need to strengthen pharmacists’ relationships with patients and direct
care staff and also their performance of educational and counseling activities.

Approximately 93 percent of the consultant pharmacists routinely participate in drug
education and training of nursing staff, but many do not provide such training to
patients, their families, or the nursing home’s aides.

OBRA 1987 requires training of clients and staff in appropriate health and hygiene
methods, “as needed. ” This includes, but is not limited to, training of direct care staff in
the identification or detection of signs and symptoms of illness or dysfunction. Yet, over
two-thirds of the consultant pharmacists do not provide education or training for either
patients (73 percent) or their families or guardians (70 percent). And, nearly half the
consultant pharmacists do not provide drug education for nurse aides (48 percent) or
medication aides (50 percent).

The law and regulations do not specifically require that such training include consultant
pharmacist training to identify possible symptoms of contraindications, adverse reactions,
or inappropriate responses to medications. However, it appears that such training would
be an integral response to the health needs of nursing home patients. Aides should
routinely be aware of the significance of patient complaints which may indicate potential
medication problems. Patients complaining of light-headedness, dizziness, fainting, or
acute weakness should signal the need for increased vigilance, not only for falls, but also
for medication side effects. Such complaints could alert the pharmacist and nursing staff
to the potential need for lab work, which could indicate drug-drug and drug-diet
interactions.

While most pharmacists are familiar with their enhanced responsibilities, significant
numbers voice strong concerns about limitations on their professional authority to
enforce OBRA drug-related provisions.

As required, nursing facilities employ consultant pharmacists to conduct monthly reviews
of each patient’s drug regimen to ensure that the prescription drugs ordered for that
individual are appropriate based on the OBRA 1987 guidelines. These consultant
pharmacists understand that they are required to 1) determine that drug records for each
resident are in order, 2) establish a system to record receipt and disposition of
prescription drugs, and 3) to offer advice and instruction in all other areas of pharmacy
services.

Pharmacists also realize they should report any concerns they may have about a resident’s
medication regimen to the attending physician or director of nursing. Further, they know


                                               19 

that OBRA 1990 identifies pharmacists as key health care professionals with a potential
role in improving therapeutic outcomes for Medicaid nursing home residents. However,
32 percent of consultant pharmacists report they lack the authority to ensure either a
facility’s or physician’s adherence to the OBRA drug-related provisions.

As consultants, pharmacists can make recommendations and attempt persuasion to change,
but they cannot force change. More specific indicators of lack of enforcement authority
include 42 percent of the pharmacists saying they are unable to control the medications
ordered and dispensed in the nursing home; 27 percent saying they cannot ensure the
nursing staff appropriately monitor the clinical effects of medications on residents’
physical, mental, or emotional condition; and 24 percent saying they cannot guarantee the
nursing staff will properly administer medications ordered. (See Appendix B, table 12.)

It is important to note that, not withstanding their lack of authority to ensure appropriate
medication regimens, most consultant pharmacists (84-90 percent) do not feel the statutory
definition of their roles or their dual responsibilities to both nursing facilities and patients
inhibit their ability to conduct appropriate medication reviews. This is borne out by the
fact that all consultant pharmacists report they routinely conduct the required monthly
drug regimen reviews for nursing home patients, and at least 75 percent say they perform
a review when changes occur either to the physicians’ orders or to the resident’s plan of
care. Nearly 93 percent of the consultant pharmacists indicate they routinely monitor each
resident’s medication regimen to ensure it maintains or improves the patient’s functioning.
Further, 95 percent of the consultant pharmacists perform the drug regimen review for a
particular patient at least once a month with 31 percent of the consultant pharmacists
visiting the nursing home weekly or more often.




                                               20 

                     RECOMMENDATIONS

This report shares information concerning drug usage in nursing homes from the
perspective of a nationally representative sample of consultant pharmacists. Pharmacists
expressed concerns about their inability to always perform quality medication reviews, the
role of the physician and nursing staff in appropriate medication usage by patients, and the
problems of potentially inappropriate medication usage or maintenance. Collectively with
the two other reports of this inspection, these concerns show a need for improvement and
underscore the importance of strengthening the medication reviews and improving
medication prescribing, administration, and monitoring practices in nursing homes.

These concerns and those addressed in our first report, “An Introduction Based on Texas”
(OEI-06-96-OOO80),indicate that HCFA should continue to work with the States and
other responsible entities to improve and enforce existing requirements for more effective
medication reviews for patients in nursing homes. Specific recommendations for HCFA
to consider in this endeavor are provided in our third report of this inspection, “A
Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-00082).




                                             21 

   COMMENTS                     ABOUT              DRAFT             REPORTS

We solicited comments from agencies within the Department of Health and Human
Services which have responsibilities for policies related to Medicare and Medicaid and
long term care. We also requested input from several national organizations representing
the interests of nursing homes, patients, or providers. We appreciate the time and efforts
of those providing comments.

Denartmental Comments

Within the Department, we received comments on the draft reports from the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE). Both agencies concurred with the recommendations; HCFA emphasized the need
for further studies to assess the extent of continued use of potentially inappropriate drugs,
other avenues of possible cost savings related to drugs, and the need to determine and
understand the potential sources of the escalating costs and claims for certain types of
drugs used in nursing homes. The final reports reflect several clarifications or changes
based on their suggestions. The full text of each agency’s comments is provided in the
third and final report of this inspection, “A Pharmaceutical Review and Inspection
Recommendations” (OEI-06-96-00082).

Comments from External Organizations

We also received comments from the following external organizations: American Health
Care Association; American Association of Homes and Services for the Aging; American
Medical Directors Association; American Society of Consultant Pharmacists; and National
Association of Boards of Pharmacy. Most of the associations concurred with one or more
of the recommendations within each of the inspection reports. All commentors support
the need for better communication and coordination between nursing home staff and other
healthcare providers, training nurse aides, and understanding the implications of nursing
home medication services and associated costs.

Several organizations questioned the methodology used in this inspection, particularly for
the consultant pharmacist survey. However, as with any evaluation, there are always
some limitations in how data and information can be obtained, given time and other
resource constraints. Further, while we acknowledge that a survey of this nature
introduces some bias and subjectivity, we also believe that the survey of consultant
pharmacists provides us with an up-close view of what is happening with prescription drug
use in nursing homes. Moreover, the results of the consultant pharmacist survey are
consistent with our results from our two other methodologies.

Some comments expressed concerns about the use of the term, “inappropriate. ” As
explained previously, use of this term in reporting concerns with a patient’s medication
regimen are somewhat a matter of opinion. The evidence provided in these three reports
does not prove that any one prescription was improper, but that closer examination is


                                              22
warranted. Also, while the use of such a drug may be supported by physician orders in
individual cases, use of the drug, in general, is likely to be considered inappropriate.

Some comments addressed the implications of broadening Federal oversight. There is
clear concern about the responsibility for medication issues being the responsibility of the
physician, not the nursing home. Further, some organizations expressed concern that
these particular issues did not result in direct recommendations about the physician’s role
for nursing home patients’ medication regimens. We felt that further examination of this
area is warranted before recommending changes which would impact so many entities
involved in the process.

In conclusion, we believe the three reports collectively, and each using a different
approach, strongly indicate that the intent of the provisions of the OBRA Acts concerning
prescription drug usage are not being clearly fulfilled. Further, HCFA has authority to
correct and enhance quality of care for nursing home patients. The recommendations we
present attempt to facilitate the initial steps of this effort, and to address some concerns
evidenced in the reports and received comments. While we recognize that great strides
have been made to meet the OBIL4 requirements, we believe further effort remains by all
the players involved (HCFA, associations and their members, nursing homes, and
residents and their families) to further improve quality of care for nursing home patients.

The full text of each organization’s comments is provided in the third and final report of
this inspection, “A Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-
00082).




                                             23 

                                ENDNOTES 


1.    Health Care Financing Administration, BDMS, Division of Program Systems, 1996.

2.    Keitz, Todd. “10 Things You Should Know About the Long Term Care Market.”
      Medicinal Marketing and Media. 30(.5):42-46. May 1995.

3.    Beard, Keith. “Adverse Reactions as a Cause of Hospital Admission in the Aged,”
      Drugs & Aging, Vol. 2, No. 4 (July/Aug. 1992), pp. 356-67.

4.    Published October 9, 1995, in the Archives of Internal Medicine, the data further
      illustrates that while spending one dollar to purchase prescription drugs, Federal and
      State governments also spend another dollar to correct the problems caused by misuse
      of those drugs.

5.    General Accounting Office. “Prescription Drugs and the Elderly: Many Still Receive
      Potentially Harmful Drugs Despite Improvements. ” Letter Report GAO/HHES-95-
      152. July 24, 1995.

6.    Knowlton, Calvin H. Statement before the Senate Special Committee on Aging,
      Hearing on Drugs and the Elderly, Washington, D. C. March 28, 1996.

7.    Inappropriate use of medications can take a number of the following forms:
      drug-drug interaction; drug-age contraindication; drug-allergy contraindication;
      drug-disease contraindication; incorrect drug dosage; incorrect duration of drug
      therapy; and less effective drug therapy.

8.    Spore, Diana L., P. Larrat, et al. “Inappropriate Drug Prescriptions for Elderly
      Residents of Board and Care Facilities. ” American Journal of Public Health,
      March 1997, Vol. 87, No. 3, pp. 404-409.

9.    Beers, Mark, Joseph G. Ouslander, Irving Rollingher, et al. “Explicit Criteria for
      Determining Inappropriate Medication Use in Nursing facility Residents. ” Archives
      of Internal Medicine, Vol. lSl(Sept. 1991), pp. 1825-32.

10.   42 CFR Set 483.60.

11.   Perri, M., J. Kotzan, L. Pritchard, et al. “OBRA 90: The Impact on Pharmacists and
      Patients. ” American Pharmacy, February 1995, Vol. NS35, No. 2, pp. 24-28.

12.   Nelson, Arthur A. “The ‘Smoking Gun’ in OBRA 90. ” Pharmacy Times, February
      1993, pp. 49-58.

13.   Fanale, R. H., et al. “The Nursing Home Medical Director, ” Journal of the
      American Geriatrics Society, 1989, 37(4), pp. 371-373.




                                            24 

14.     The Merck Manual,       15th edition, fourth printing.

15. 	   Government regulation and policies of third-party payors (insurance companies)
        have a direct impact on utilization, perhaps mostly by decreasing the number and
        types of laboratory tests routinely conducted in nursing homes. Medicare has
        changed its policy for payment of laboratory tests (i.e., no more orders for tests,
        especially multiple tests, without good clinical indications). Thus, one effect of
        this new policy may be less lab testing, particularly for those tests which cover a
        variety of possible physical effects of medication (i.e., Super Chemistry).

16. 	   According to research, there are at least four patterns of constipation found in
        infirm elderly nursing home patients which may often be due to secondary causes,
        such as physical immobility and medications (e.g., antidepressants and neuropletics
        with anticholinergic properties, calcium channel blockers, iron supplements, and
        narcotics).

17. 	   Elderly patients have an increased risk for falling when they experience a combination
        of any of the following:

                dementia, especially more advanced stages; 

                orthostasis, a fall in systolic blood pressure, may be enhanced by certain 

                antihypertensives and psychotropics as well as certain physical difficulties related to 

                either urination or digestion; 

        3)      arthritis, particularly when the patient has limited mobility, may increase a patient’s 

                tendency to fall or to experience confusion when certain narcotic analgesics are used, 

                usually inappropriately, for the pain; 

        4)      incontinence of urine or bowel, past stroke, or abnormal balance or gait, seizures; 

        5)      age-related decreases in sight, hearing, reaction time, sensory awareness or the use 

                of anticonvulsants which may increase the possibility of falls for ambulatory patients; 

        6)      metabolic drug related causes include uncorrected hypothyroidism, hypoglycemia 

                (insulin and oral antidiabetics), anemia (NSAIDS), low serum sodium and potassium, 

                and dehydration (diuretics); and 

        7)      the inability to recognize environmental risks (e.g., unlocked bed wheels). 


        Also, some of the listed ailments or medications have their own potential for causing
        physical, mental, and emotional side effects for elderly persons.

18. 	   Both The MERCK Manual of Diagnosis and Theranv and the AARP Prescription
        Drug Handbook provide the most common reasons for usage and concerns related
        to the usage of these drugs:

        Antipsychotics (“major” tranquilizers also called neuroleptics)
        Are used to treat a variety of very severe emotional disorders, including severe anxiety,
        agitation, or psychosis. They should not be used to treat simple anxiety. Low doses of
        some of these may also be used to treat nausea and vomiting. The principle restriction
        while taking these drugs is related to the taking of any other drugs, including over-the-
        counter ones, because these drugs can negatively interact with blood pressure medication,
        antidepressants, antihistamines, barbiturates, narcotics, tranquilizers, cimetidine (medicine
        for ulcers), and antibiotics. Further, these drugs may disturb the ability of a patient’s
        body to regulate its temperature.




                                                  25 

        The most common side effects are sleepiness, sudden faintness or falling when getting up 

        from a reclining or sitting position, muscle stiffness, and slowness of movement (each of 

        which may be treated symptomatically by other medications which may negatively interact 

        with antipsychotics). Certain examples should clearly be avoided for medical reasons such 

        as thioridazine in patients with heart disease. Elderly patients who use these drugs are 

        more prone to extrapyramidal side effects, tardive dyskinesia, and hypotension. 

        Occurrences of other rare side effects can also be increased in the elderly (e.g., 

        leukopenia, skin pigmentation). 


        Antianxiety agents (“minor” tranquilizers also called anxiolytics)
        Anxiety neurosis is a neurotic disorder characterized by chronic, unrealistic anxiety often 

        punctuated by acute attacks of anxiety or panic. It afflicts only 5 percent of the 

        population, is characteristically among young adults, and affects women twice as often as 

        men. Anxiety symptoms often become less severe and troublesome with middle age. The 

        risk is that many elderly persons being treated for anxiety may not actually be suffering the 

        illness itself. 


        Both physiologic and psychologic facts cause anxiety neurosis, and there is evidence that a 

        genetic propensity may also exist. Physical examinations and laboratory studies usually 

        can establish whether the patient is truly suffering anxiety or another illness which may 

        manifest itself with symptoms similar to those of anxiety (e.g., Graves’ disease, 

        myocardial infarction, depression). 


        Benzodiazapines have largely supplanted other antianxiety drugs, including the 

        barbiturates, meprobamate, and hydroxyzine. While phenothiazines (e.g., thioridazine) are 

        occasionally used as antianxiety agents, their side effects make them ill-suited for 

        ambulatory patients without marked anxiety, or for patients who do not respond or tend to 

        become dependent with the use of benzodiazepines. [The degree of central nervous system 

        depression produced by most anxiolytics is dose-dependent and can be severe. Further, 

        these drugs tend to have a long half-life, and for some of the drugs in this category, half-

        lives increase considerably with age (four- to sixfold at age go).] In the elderly, these 

        drugs are often associated with over sedation, ataxia, confusion, reduced energy levels , 

        and paradoxical excitement and delirium. Physiologic changes common to elderly persons 

        may explain any unusual responses to the drugs. These drugs can actually worsen the 

        conditions of patients suffering dementia or depression and, occasionally, induce florid 

        delirium. In the elderly, these drugs should be used for short-term treatment only. 


        Sedatives/Hypnotics
        These terms, as well as “antianxiety agent,” “minor tranquilizer,” and “anxiolytic” are
        ambiguous and often used interchangeably. A single one of these drugs is frequently
        useful in more than one therapeutic category, depending on the dosage. All available
        hypnotics involve some risk of overdose, habityation, over-tolerance, and addiction, as
        well as withdrawal symptoms that can include a temporary recurrence of sleeplessness.
        Ambulatory patients given these drugs should avoid activities requiring mental alertness,
        judgment, and physical coordination. They should particularly be used with extreme
        caution in patients with severe pulmonary insufficiency. The elderly may exhibit
         restlessness, excitement, or exacerbations of symptoms of organic brain disorders. Serum
         levels should routinely be checked for appropriate dosage levels when such symptoms are
         exhibited.

19. 	   Weekly Report for Week Ending January 17, 1997, Health Care Financing
        Administration, Health Standards and Quality Bureau.

20. 	   Ruegg et al presents three main types of depressive disorders in the elderly.           These
        include:



                                                  26 

        1) 	   the patient’s presentation of multiple somatic complaints (headache,
               gastrointestinal upset, fatigue) which, in effect, “mask” or hide the presence of
               depressive symptoms;
        2) 	   the patient complains of difficulty concentrating or remembering, and withdraws
               from the environment, falsely mimicking dementia; and
        3) 	   the patient experiences some form of delusion. (It should be noted that there are
               also some forms of medical illness with symptoms mimicking a delusional
               depression such as a tumor or stroke or Alzheimer’s disease.)

21. 	   Chrischilles E., D. Foley, R. Wallace, J. Let&e, T. Semla, J. Hanlon, et al. “Use
        of Medications by Persons 65 and Over: Data from the Established Populations for
        Epidemiologic Studies of the Elderly. ” Journal of Gerontology, 1992; 47 :M 137-44.

22. 	   Telephone conversations with Tom Clark, Director of Professional Affairs, subsequent
        to other conversations with Janice L. Feinberg, Director of Research and Education
        Foundation, both with the American Society of Consultant Pharmacists.




                                                27 

                                   APPENDIX                   A


                                 20 Drugs Generally Considered
                                  Inappropriate for the Elderly


The 20 drugs listed below were judged generally inappropriate for elderly patients by a panel of
experts. The panel’s results and methodology, published in 1991, indicate that these drugs should
normally not be used with elderly patients. However, they stress that there could be some medical
situations in which use of these drugs would be appropriate.


        Medication                        Use                         Comment

    Amitriptyline                     To treat 
                    Other antidepressant
                                      depression 
                  medications cause
                                                                    fewer side effects

    Carisoprodol                      To relieve severe 
           Minimally effective
                                      pain caused by 
              while causing
                                      sprains and back 
            toxicity; potential
                                      pain 
                        for toxic reaction
                                                                    is greater than
                                                                    potential benefit

   Chlordiazepoxide                   As a (minor) tranquilizer 
   Shorter-acting
                                      or antianxiety 
              benzodiazepines are
                                      medication 
                  safer alternatives

   Chlorpropamide                     To treat diabetes 
           Other oral medications
                                      (a hypoglycemic agent) 
      have shorter half-lives
                                                                    and do not cause
                                                                    inappropriate
                                                                    antidiuretic hormone
                                                                    secretion

   Cyclandelate                       To improve blood 
            Effectiveness is in
                                      circulation 
                 doubt; no longer available
                                                                    in the U.S.




                                                A -1 

    Medication         Use                        Comment

Cyclobenzaprine   To relieve severe 
           Minimally effective
                  pain caused by 
              while causing
                  sprains and back 
            toxicity; potential
                  pain 
                        for toxic reaction
                                                is greater than
                                                potential benefit

Diazepam          As a (minor) tranquilizer 
   Shorter-acting
                  or antianxiety 
              benzodiazepines are
                  medication 
                  safer alternatives

Dipyridamole      To reduce blood-
             Effectiveness at low
                  clot formation 
              dosage is in doubt;
                                                toxic reaction is
                                                high at higher
                                                dosages; safer
                                                alternatives exist

Flurazepam        As a sleeping pill 
          Shorter-acting
                  (a hypnotic) 
                benzodiazepines are
                                                safer alternatives

Indomethacin      To relieve the 
              Other nonsteroidal
                  pain and 
                    anti-inflammatory
                  inflammation of 
             agents cause less
                  rheumatoid 
                  toxic reactions
                  arthritis 


Isoxsuprine       To improve blood 
            Effectiveness is in
                  circulation 
                 doubt

Meprobamate       A (major) tranquilizer 
      Shorter-acting I
                  (used for anxiety) 
          benzodiazepines are
                                                safer alternatives

Methocarbamol     To relieve severe 
           Minimally effective
                  pain caused by 
              while causing
                  sprains and back 
            toxicity; potential
                  pain 
                        for toxic reaction
                                                is greater than
                                                potential benefit




                             A -2 

         Medication                      Use                      Comment

    Orphenadrine                    To relieve severe           Minimally effective
                                    pain caused by              while causing
                                    sprains and back            toxicity; potential
                                    pain                        for toxic reaction
                                                                is greater than
                                                                potential benefit


    Pentazocine                     To relieve                  Other narcotic
                                    moderate to severe          medications are
                                    pain                        safer and more
                                                                effective

    Pentobarbital                   As a sleeping pill          Safer sedative-
                                    and to reduce               hypnotics are
                                    anxiety (hypnotic)          available

    Phenylbutazone                  To relieve the              Other nonsteroidal
                                    pain and                    anti-inflammatory
                                    inflammation of             agents cause less
                                    rheumatoid                  toxic reactions
                                    arthritis

    Propoxyphene                    To relieve mild to          Other analgesic
                                    moderate pain               medications are more
                                                                effective and safer

    Secobarbital                    As a sleeping pill          Safer sedative-
                                    and to reduce               hypnotics are
                                    anxiety (hypnotic)          available

    Trimethobenzamide               To relieve nausea           Least effective of
                                    and vomiting                available
                                                                antiemetics




Source:
Beers, Mark, Joseph G. Ouslander, Irving Rollingher, et al. “Explicit Criteria for Determining
Inappropriate Medication Use in Nursing Home Residents, ” Archives of Internal Medicine, Vol.
lSl(Sept. 1991), pp. 1825-32.



                                               A -3 

                                             APPENDIX                          B


                                       Consultant Pharmacists’ Assessments of
                                       Medication Problems in Nursing Homes
                                                  (Weighted Data)




                                Table 1: Concerns about Residents       Using Certain Medications

                                                             FREQUENCYOFOCCURRENCE
                                                         (During Six-Month Period Prior to Survey)
          Medication     Type
                                            % Often              % Sometimes              % Rarely   % Never

 antibiotics    or anti-infectives             3.2                      35.8                48.4      12.6
 anesthetics                                   0.1                      0.8                 12.2      86.9
 antipsychotics                               13.3                      53.3                25.8       7.6
 antidepressants                               6.9                      31.4                47.7      14.0
 anxiolytics                                  14.6                      46.0                32.4       7.0
 diuretic medications                          2.6                      26.3                48.8      22.2
 narcotics                                     6.5                      39.3                35.8       18.4
 non-steroid     anti-inflammatory             6.7                      40.7                41.0       11.6
 sedatives or hypnotics                       12.3                      49.5                28.5       9.6
 steroids                                      2.6                      11.7                53.3      32.3
 gastrointestinals                             3.6                      32.6                46.2       17.6
 ACE inhibitors                                2.7                      22.6                54.3      20.4
 calcium channel blockers                      1.1                      18.5                58.9      21.5
 H2 antagonists                               17.7                      47.6                26.8       7.9
 digoxin                                       3.5                      36.5                49.2       10.8

Source:   Q30a-Q30o                                                 #




                                                           B-l
                                      Table 2: Appropriateness             of Prescribed        Medication

                                                                                        FREQUENCYOFOCCIRRENCE

                        Problem Encountered                                   % Often       % Sometimes             % Rarely      % Never


  medication      contraindicated      by diagnosis      or disease               1.7                 24.2             66.7             7.5
  “as needed” medications            administered     too long                   7.1                  54.2             34.6             4.1
  unauthorized          medication   with no signed orders                       0.7                    7.6            41.0            50.7
  continuous      use of sleeping medication          for too long              26.5                  49.6             22.1             2.1
  use of antipsychotic         w/o diagnosis                                     6.0                  38.6             42.7            12.7
  use of antidepressant         w/o diagnosis                                    4.3                  28.3             55.6            11.8
  overutilization                                                                9.5                  52.2             33.8             4.5
  underutilization                                                               0.2                  26.0             61.1            12.7
  use of more than one medication                in same drug                    4.2                  35.9             53.9             6.0
Source:     Q311,Q31n-Q31u




                         Table 3: Number of Physicians              Inappropriately       Prescribing     Medications

             Medication       Type               % None               % Few             % Some            % Most               % All

          Antipsychotics                          45.8                 41.5               10.1                1.9               0.7

          Anxiolytics                             43.8                 37.6               16.0                2.6               0.0
          Antidepressants                         57.2                 28.6               8.7                 4.1               1.5

          Sedatives or Hypnotics                  37.8                 41.9               17.0                2.6               0.7
     Source:    Q12a-Q12d




                                       Table 4: Why 	 Doctors Don’t Limit Inappropriate
                                                      Medications for the Elderly

                                                      Reason                             Percent Pharmacist
                                                                                              Indicating

                                     Lack of training                                             14.9%

                                     Lack of knowledge                                            21.0%

                                     Indifference                                                 20.5%

                                     Pressure to continue        medication
                                     from:

                                           b Family/guardian                                      27.8%
                                           b Resident                                             23.6%
                                           t Facility staff                                       14.3%

                                 Source:   Q19




                                                                       B-2 

                                                    Table 5: Administration         of Medications

                                                                                FREQUENCYOFOCCURRENCE
          Problem Encountered
                                                           % Often             % Sometimes              % Rarely        % Never

  incorrect dosage                                               2.2               26.5                   37.1            3.4
  not optimal duration                                           2.0               44.4                   44.1            8.7
  not optimal dosage                                             3.9               48.8                   42.2            5.1
  administered        at incorrect time                        11.4                47.6                   36.9            4.1
  administered        to wrong resident                          0.0                4.4                   71.2            24.3
  inappropriate dosa e alteration                                5.0               35.0                   51.3            8.7
  (crush/no crush, dfiution, etc.)
  incorrect   route of administration                          0.1                  8.0                   59.1           32.8
  wrong medication         Administered                        0.0                 10.9                   76.5            12.6
Source:   Q31a-Q31g




                                                  Table 6: Monitoring          of Medication    Usage

                                                                                     FREQUENCYOFOCCURRENCE
                  Problem Encountered
                                                                       % Often            % Sometimes      % Rarely     % Never

  failure to chart use 
                                                 11.0                  47.7              34.7     6.6
  l$:tTJIosage         adjustment       for renal/hepatic 
              6.0                   44.2              40.2     9.6

  inappropriate       for use by elderly 
                               4.1                   41.6              44.6     9.7
  duplicate prescriptions 
                                              0.9                   28.1              55.1     15.4
  medication/medication          interaction 
                           3.6                   53.0              38.7     4.7
  medication/diet       interaction 
                                    1.8                   32.6              57.3     8.3
  medication/gender        interaction 
                                 0.0                   4.3               47.8    47.9
  contraindicated       by resident’s      allergy history 
             0.8                   19.7              63.8     15.7
  lack of lab testing to ensure continued               need 
           8.8                   51.7              35.0     4.5
  lack of monitoring        for efficacy and side effects 
              11.0                  38.6              36.2     14.2
  lack of lab testing for routine,           on-going                    10.2                  40.8              43.2     5.8
  monitoring of toxics
  lack of physical assessment for continued                   need       9.1                   37.5              44.3     9.1
  or appropriateness of dosage
  lack of physical assessment for routine, on-                           10.0                  32.7              48.0     9.3
  going monitoring of certain medications
Source:   Qf31-Qr31




                                                                         B-3
                             Table 7: Doctors Routinely           Seeking Lowest Effective        Dose for Select Drug Classes

                                                                        Antipsychotics           Anxiolytics 	      Sedatives/   Antidepressants
                                                                                                                    Hypnotics

        Number of doctors routinely
       trying for lowest effective dose
                b    All                                                                                              21.9%          17.0%
                                                                         25.5%                     19.8%
                b    Most                                                                                             41.4%          24.9%
                                                                         45.8%                     42.8%
                b    Some                                                                                             15.6%          15.7%
                                                                         18.6%                     23.6%
                b    Few                                                                                                             26.3%
                                                                          8.7%                     12.2%              19.1%
                b    None                                                                                              1.9%          16.1%
                                                                          1.4%                      1.6%
      Source:       414




II                                                         Table 8: Adverse Medication          Reactions

                                                                                  FREQUENCYOFOCCURRENCE
                Problem Created
                                                              % Often            % Sometimes                     % Rarely            % Never

     contributed          to urinary      incontinence 
        0.9                      25.3                      56.1                 17.7
     contributed          to depression 
                        1.1                     38.1                      50.4                 10.4
     contributed          to delirium 
                          0.9                     39.9                      45.9                 13.3
     contributed          to falls 
                             6.1                     60.2                      27.1                 6.7
     contributed          to constipation 
                     16.6                     64.5                      15.4                 2.8
 Source:   Q31h-Q31m




                                                                               B-4
                                            Table 9: Quality Assurance            and Quality Control Issues

                                                                                                   FREQUENCYOFOCCURRENCE
                                 Problem Encountered
                                                                                          % Often       % Sometimes             % Rarely        % Never

  medication          order not on MAR                                                       0.2                17.3              62.6            19.9
  medication          listed on MAR w/o order                                                0.1                 6.7              47.8           45.4
  MAR not updated to reflect new dose or schedule                                            2.1                27.2              54.6           16.0
  order sheets not current or correct when signed by MD                                      4.6                22.0              54.5           18.8
  lack specific directions             for usage                                            11.6                48.7              34.8            4.9
  order incomplete                                                                           5.8                46.5             40.2             7.5
 medications           not provided      for periods away from nursing                      0.2                 2.6              49.1            48.1
 home

 theft of medications                                                                       0.1                 5.1              49.1            45.8
 misplacement            of medications                                                     0.7             21.6                 62.9            14.8
 medications           found in trash can in resident’s       room                          0.0                 3.3              31.8            64.9
 medications           administered      by inappropriate    or unauthorized                0.0                 1.5               15.2           83.3
 personnel

 medications           administered      in disregard of stop orders                        0.3                 17.0             60.3            22.4
 clinical abuse or misuse                                                                   0.0                 4.6              40.6            54.8
iource:    Q311-Q319,      Qa31-Qe31




                                        Table 10: Barriers to Including Non-Prescribed Medications
                                               in Review of Residents’ Medication Regimens

                                                   Possible Barriers                                                   % True        % False

                    Collecting    data directly from residents or their guardians            is too labor               63.9             36.1
                    intensive
                    Facility contract does not require pharmacist’s            review of non-prescribed                 20.8             79.2
                    OTC medications
                    Records of non-prescribed          OTC medications     not available                                34.1             65.9
                    Records of non-prescribed          OTC medications     insufficient                                 39.7             60.3
                    Non-prescribed       medications    not included in resident’s     plan of care                     61.6             38.4
                    Non-prescribed       medications    not part of resident’s     assessment                           43.3             56.7
                    Non-prescribed       medications    not included   in resident’s      permanent   medical           48.8             51.2
                    record
                    Facility staff do not routinely      inspect residents’      rooms for non-prescribed               12.3             87.7
                    medications
          Source:     Q25a-Q25h




                                                                           B-5 

   Table 11: Policy Barriers to Appropriate                      Reviews of Medication   Regimens

                             Possible Policy Barriers                         % True       % False

          No clearly defined responsibilities.for  pharmacists                  10.2         89.8
          performing services in nursing facilities
          No clear separation between, responsibilities             to the      11.6         88.4
          nursing home and to the restdents
          Primarily       responsible   to nursing     home rather than to      15.7         84.3
          resident 

          Lack of pharmacists’ enforcement authority                to 
        32.1         67.9
          ensure facilities’ adherence to OBRA 

Source:     QBa,J,k,p




           Table 12: Nursing home and Other Management Issues as Barriers
                    to Appropriate Reviews of Medication Regimens

             Possible Management            Issues as Barriers                % True       % False

          No control over medications           ordered and dispensed          42.4          57.6
          in nursing home
          Insufficient access to records maintained             by nursing      11.8         88.2
          home, e.g. assessment, plan of care
          No authority over nursing staff to ensure                            23.7          76.3
          medications are administered as ordered
          No authority over nursin     staff to ensure medically               27.3          72.7
          appro riate monitoring of resident’s physical
          condo.Pton as related to drug regimen
          No means of ensuring          resident’s     compliance   with        17.4         82.6
          drug regimen
          No authority over dispensing          pharmacy                        14.7         85.3
Source:     Q29d,g,h,i,e,f




                         Table 13: Professional Authority Issues as Barriers
                          to Appropriate Reviews of Medication Regimens

                        Possible Professional        Barriers                 % True       % False

          Lack of authority to modify drug regimen                             58.6          41.4
          Lack of authority to order lab tests to ensure                       65.5          34.5
          appropriateness of drug regimen
          Insufficient authority to ensure doctors appropriately                61.6         38.4
          prescribe residents’ medications
          Doctors not required to respond to pharmacists’                       54.4         45.6
          concerns
          Doctors rejection        of pharmacists’      recommendations         46.8         53.2
Source:     Q29b,c,l,m,n




                                                        B-6
                                         APPENDIX                            C


                        Additional Pharmacist Survey Weighted Data




                Table 1: Routine Performance                 of Other Drug-Related        Functions

                          Consultant      Pharmacist     Functions                          % Yes     % No

  Ensure MAR are complete and orderly                                                        93.7     6.3
  Maintain records for medication               receipt, administration,    and              84.1     15.9
  destruction
  Monitpr medication records to ensure maintenance                   or improvement          92.9     7.1
  of resident’s functioning
  Monitor medications            for expiration,      proper storage, or packaging           96.0     4.0
  integrity
  Preparation        of medication       dispensing    mechanisms,   e.g. cart               67.2     32.8
  Periodical1 observe/evaluate              medication    passes to ensure accuracy          85.2     14.8
  of admims27ration
Source:   QlOe,p-t




                             Table 2: Frequency of Routine Performance
                       of Drug Education/Training and Committee Participation

                                                                           % Yes           % No

                     Drug education/training  of:
                         b nursing staff                                   93.0             7.0
                         b nurse aides                                     52.0            48.0
                         w medication aides                                49.8            50.2
                         t families/guardians                              30.1            69.9
                         w residents                                       27.1            72.9

                     Participation in committees for:
                          b pharmacy and therapy                           73.6            26.4
                          w quality assurance                              86.5            13.5
                          b infection control                              67.3            32.7
                          b care planning                                  10.9            89.1

                Source:     QlOg-k,l-o                                                I




                                                           C-l
                 Table 3: Difficulty             in Obtaining      Specific Patient-Related         Records

          Patient Documents                or Records                     % Yes                          % No

  Doctors’ orders                                                           6.0                           94.0
  Doctors’ progress notes                                                   12.7                          87.3
  Nurses’ progress notes                                                    9.1                          90.8
  Resident’s       assessment                                               11.0                         89.0
  Resident’s       diagnosis(es)                                           34.7                          65.3
  Resident’s plan of care                                                   3.4                          96.6
  Lab reports 
                                                            32.8                          67.2
  Resident’s       nutritional     plan 
 needs                             6.5                          93.5
  Incident/accident         reports 
                                      19.8                          80.2
  Medication        administration 
 records                               11.0                          89.0
  Hospital discharge summary                                               25.5                          74.5
  Specialists’      Notes (PT, OT, ST, etc.)                                8.8                          91.2
  Transfer     reports                                                     20.4                          79.6
  Hospital/operation            reports                                    30.1                          69.9
Source:   Q28a-n




                                               Table 4: Routine Contacts
                                           for Medication Regimen Problems

                                     Who Contacted                          %Yes         % No

                         Medical Director                                   43.7          56.3
                         Director of Nurses                                 93.7              6.2
                         RNs/LVNs/PNs                                       96.4              3.6
                         Resident                                           12.2          87.8
                         Resident’s        family/guardian                   5.2          94.8
                        Resident’s         personal doctor                  87.7          11.5
                         Personal doctor’s PA/NP                            54.9          45.0
                         Appropriate        nurse aide                      17.8          82.2
                         State certification       agency                    7.7          92.3
                         Dietitian                                          42.5          57.5
                         Therapist (e.g. occupational,                      24.8          75.2
                         physical , speech)
                      Source:     Q4la-k




                                                             c-2
                                          Table 5: Frequency   of Contact with Residents

                                                   Always            Mostly       Sometimes             Rarely             Never

  Routine1 meet with resident or                      1.6             0.6               15.9             44.9              37.0
  family a7ter medication review
  Routinely ask resident or family                    1.1             2.6               25.6             54.2              16.4
  preferences m certain prescribed
  medications
Source:     Q47,Q48




                               Table 6: Cooperation         Between Pharmacists     and Others

                                                                        Extent of Cooperation 


    Individual With Whom                       % Very Good       % Good         % Fair         % Poor           % No Contact 

    Consultant Pharmacist
         Communicates

          Nursing home                             51.6               31.1        8.9           1.7                  6.7
          Administrator

          Medical Director for                     29.2              42.3        20.0           2.2                  6.3
          Facility

          Director of Nursing for                  73.4              21.1         2.3           1.7                  1.5
          Facility

          Patient’s Personal                       12.6              44.5        35.7           3.8                  3.5
          Physician

          Immediate Nursing       Staff            60.6              33.5         5.0           0.9                  0.0
          (RN,LVN,PN)

          Nurse Aides 
                            21.2              23.1         6.7           1.6                 47.5

          Patient 
                                11.8               19.7        9.3           1.4                 57.9

          Patient’s Family or 

          Guardian 
                               10.5               17.2        7.2           1.o                 64.2
Source:     Q6Oa-h




                                                               c-3
